            OFFICE OF MUNICIPAL
                SECURITIES

                      EXECUTIVE SUMMARY
We found that the Office of Municipal Securities (OMS) has generally carried out its
mission effectively: to provide a core of expertise and coordination on urgent and
ongoing municipal securities issues. The office currently exists on a provisional basis,
with a renewal decision made annually since its creation in 1995. We are
recommending that the Commission consider its status in light of the existing and
anticipated municipal securities environment. Our other recommendations relate to
office resources (turnover among the attorney fellow and the office automation clerk
positions) and enhancing awareness of the office.
OMS, the Office of the Chairman, the Office of Administrative and Personnel
Management, and the Office of Investor Education and Assistance provided comments
on the draft report. We modified the report as appropriate to reflect the comments.



                                 BACKGROUND
On March 22, 1995, the Chairman announced the creation of the Office of Municipal
Securities to provide coordination and expertise on the varied initiatives related to the
municipal securities market. The news release stated that with the creation of OMS, the
Commission’s many debt market initiatives--including those related to enforcement,
market regulation, disclosure and transparency proposals--would be enhanced by an
increased expert focus.

OMS provides expertise on municipal securities issues to the Division of Enforcement,
serves as a clearing house throughout the Commission on initiatives related to municipal
debt, and provides assistance in developing Commission initiatives in response to this
expanding municipal debt market. OMS has helped further Commission efforts to rid the
market of pay-to-play practices in the award of municipal securities business and to
bring increased disclosure and transparency to the market.

Since its creation, OMS has had one Director, at the GS-15 level (plus a retention
allowance). Its staff consists of two attorney fellows (on two year term appointments),
three attorneys, one paralegal, and one temporary office automation clerk. According to
the Office of Administrative and Personnel Management, OMS had an Assistant Director
position (GS-14) from May 1995 to May 1997.
                                                                                                                                                             Page 2



                                          SCOPE AND OBJECTIVES
Our objective was to evaluate the goals and operations of the office, and to identify
potential improvements. We reviewed available documentation about the office, and
interviewed officials from organizations inside and outside of the Commission.
We did not evaluate the propriety of specific judgments made by OMS concerning
municipal securities matters. Our review was performed between December 1999 and
May 2000, in accordance with generally accepted government auditing standards.



                                                            AUDIT RESULTS
Based on our interviews and review of documentation, we found that OMS has generally
carried out its mission effectively. It has established good working relationships with
other Commission divisions and offices, and its expertise is requested and provided as
appropriate on municipal securities matters.
OMS’s Director provided a summary of OMS’s accomplishments for calendar year 1999
to his staff, including the following:
      •      Compiled all known Commission actions in the municipal market into a 500 page
             volume that has been widely distributed;
      •      Presented to numerous groups guidance provided by the Commission to the
             municipal market;
      •      Initiated outreach to small issuers;
      •      Organized and hosted the first annual municipal market roundtable at the
             Commission;
      •      Provided commentary and analysis to the American Bar Association (ABA)
             regarding a proposed ethics rule against pay-to-play, which the ABA adopted at
             its February 2000 meeting;
      •      Provided guidance on new municipal products;
      •      Produced and delivered speeches on numerous topics, including dirt bond
             financings;
      •      Continued to provide detailed assistance to the Division of Enforcement in
             numerous actions;
      •      Initiated an overseas technical assistance program in coordination with the Office
             of International Affairs;
      •      Conducted a training program for the Office of Compliance Inspections and
             Examinations on municipal matters and provided continued assistance on exam
             templates;
      •      Worked closely with the Division of Investment Management in preparing the
             pay-to-play proposal for investment advisers;

__________________________________________________________________________________________________________________________________________________________________

Office of Municipal Securities (Audit 315)                                                                                                   August 1, 2000
                                                                                                                                                             Page 3


      •      Reviewed numerous Municipal Securities Rulemaking Board rule changes and
             successfully corrected proposed rule amendments that would have been
             detrimental to OMS program goals;
      •      Provided technical assistance on proposed legislation in the Congress;
      •      Provided testimony to the New York City Campaign Finance Board; and
      •      Provided assistance to the public in responding to numerous inquiries.
In informal comments to a prior draft of this report, the Director of OMS noted that the
above list does not represent all of OMS’s accomplishments. He mentioned that OMS
has provided the Commission with supplemental memoranda on a variety of
enforcement actions relating to municipal securities market participants; coordinated
Orange County bankruptcy matters; assisted market participants in preparation of
compliance guidance; and prompted the voluntary ban on pay-to-play activities by
independent financial advisers.
He further mentioned that some of the office’s recent ongoing activity includes
assistance to the Boston office with the “Big Dig” inquiry, as well as assistance to other
regional offices with other municipal enforcement inquiries underway; preparation of a
staff legal bulletin together with the Division of Investment Management regarding
independent financial advisers; review of MSRB proposals to alter reporting
requirements under Rules G-37 and G-38; assistance to the trial counsel on the City of
Miami matter in preparing post trial memoranda; organization of seminars targeting small
local issuers of municipal securities in the various states; and preparation for the second
annual municipal roundtable.
Presented below are several recommendations to enhance OMS’s operations.


STATUS OF OMS
As a provisional office subject to annual renewal, OMS’s status appears to be in some
doubt. Since five years has passed since its creation, consideration of its status seems
appropriate, in light of the existing and anticipated municipal securities environment.
Options to consider include making the office permanent; folding the office into another
Division (e.g., the Division of Market Regulation), or leaving the office as provisional for
now, while setting a deadline for a final decision. We are not endorsing any particular
option.
If the office were made permanent, its status would need to be formalized, through
communications to the Congress, publication in the Code of Federal Regulations, and
modification of Commission organization codes.

             Recommendation A
             The Office of the Executive Director, in consultation with the Chairman’s Office,
             OMS, and other offices and divisions, should consider the status of OMS, as
             discussed above.




__________________________________________________________________________________________________________________________________________________________________

Office of Municipal Securities (Audit 315)                                                                                                   August 1, 2000
                                                                                                                                                             Page 4



OFFICE RESOURCES
Attorney Fellows
OMS has two attorney fellows, who serve on two-year terms. According to OMS’s
Director, recruitment and retention of fellows can be difficult. Candidates with extensive
experience in municipal securities are understandably reluctant to leave private law
practice for a short-term appointment at the federal government’s salary structure.
Moreover, because OMS does not have a permanent GS-15 position, it does not have a
Deputy to assist the Director in managing the Office.
Office Automation Clerk
OMS has a temporary office automation clerk to perform administrative duties. This
position suffers frequent turnover. Also, because of the relatively low pay of the position,
strong candidates are difficult to obtain.

             Recommendation B
             OMS should consult with the Office of Administrative and Personnel
             Management (OAPM) and the Office of the Executive Director (OED) on whether
             one of OMS’s attorney fellow positions can be converted to a GS-15 Deputy
             Director position. Another option to consider would be reestablishing the former
             GS-14 Assistant Director position (see Background).

             Recommendation C
             OMS should consult with OAPM and OED on whether the office automation clerk
             position can be made permanent, and/or upgrading the position.


OFFICE AWARENESS
Some industry organizations do not think the roles of OMS and the Division of Market
Regulation have been clearly distinguished, i.e., what each organization is responsible
for and what each does. Also, some less senior Commission staff appear to be unclear
as to OMS’s mission and responsibilities.
One way to enhance awareness of the office is through electronic media. Information
about OMS on the Commission’s Internet site is scattered and needs to be consolidated.
OMS is aware of this issue, but is awaiting action by the Office of Information
Technology (OIT) to reconfigure the web site. Also, OMS is not currently represented on
the Commission’s Intranet.

             Recommendation D
             OMS should consult with OIT about the most expeditious way to consolidate
             OMS’s information on the Commission’s web site. It should also prepare a
             description of its activities for the Intranet. In addition, OMS should consider
             other alternatives to enhance understanding of its mission (e.g., a presentation in
             the Commission’s lunch and learn series).

__________________________________________________________________________________________________________________________________________________________________

Office of Municipal Securities (Audit 315)                                                                                                   August 1, 2000
